APPENDIX A
State of Florida First DCA Opinion

r

First District Court of Appeal
State of Florida
No. 1D19-881

Andres Cabezas,
Appellant,
v.
Richard Corcoran as the
Commissioner of Education,
Appellee.

On appeal from the Education Practices Commission.
April 7, 2020

Rowe, J.
v Andres Cabezas appeals a final order of the Education
Practices Commission permanently revoking his Florida
educators certificate based on his federal conviction for receipt of
child pornography. He argues that he was denied due process
because he was not granted a formal hearing before the EPC
revoked his certificate. He also contends that the EPC had no
authority to revoke his certificate because he had appealed his
federal conviction. For the reasons below, we affirm.
Cabezas pleaded guilty to a federal charge of receipt of child
pornography. After Cabezas was sentenced to twelve years in
federal prison, the EPC filed an administrative complaint seeking
to revoke his educator’s certificate. The EPC alleged that Cabezas
APPENDIX A

violated section 1012.795(l)(f), Florida Statutes, by pleading guilty
to and being convicted of a disqualifying offense under section
1012.315, Florida Statutes.
Cabezas disputed the charges in the complaint, arguing that
the EPC could not revoke his certificate because his federal
conviction was not yet final. Cabezas requested a formal hearing
on his election of rights form. The EPC reviewed the request and
concluded that Cabezas had not disputed issues of material fact
that would require a formal hearing under section 120.57(1),
Florida Statutes. Instead, finding that Cabezas’ dispute was a
legal one, < the EPC held an informal hearing under section
120.57(2), Florida Statutes. Based on their finding that the federal
conviction was a disqualifying offense under section 1012.795,
Florida Statutes, the EPC entered an order permanently revoking
Cabezas’ educator’s certificate. This timely appeal follows.
Cabezas argues that the EPC deprived him of due process
when it denied his request for a formal hearing. He further argues
that the EPC lacked authority to revoke his license because his
federal conviction was not yet final. We disagree.
Cabezas had no right to a formal hearing because his
challenge to the EPC’s complaint did not involve any disputed
issues of material fact. Section 120.57(1), Florida Statutes, gives
substantially affected parties the right to a formal hearing to
challenge the decision of an administrative agency when issues of
material fact are in dispute. Rosenzweig v. Dep’t of Transp., 979
So. 2d 1050, 1055 (Fla. 1st DCA 2008). When material facts are not
in dispute, an agency need not grant a formal hearing and instead
may conduct an informal hearing. HobeA'ssocs., Ltd. v. State, Dep’t
of Bus. Regulation, Div. of Fla. Land Sales, Condos., & Mobile
Homes, 504 So. 2d 1301, 1305 (Fla. 1st DCA 1987).
Cabezas claimed that the EPC could not revoke his educator’s
certificate under section 1012.795 because his federal conviction
was not yet final. Cabezas appealed the conviction and his appeal
remained pending. Even so, Cabezas’ claim involves a legal
dispute, not a factual one. To resolve the claim, the EPC was
required only to consider whether Cabezas’ conviction needed to be
final under section 1012.795, Florida Statutes, before the EPC
2

could revoke his educator’s certificate. Because Cabezas raised
only a legal dispute over the finality of his conviction, the EPC did
not err by conducting an informal hearing.
On the merits of Cabezas’ claim, the EPC correctly concluded
that section 1012.795, Florida Statutes, does not require it to await
the outcome of an appeal before the EPC may revoke an educator’s
certificate based on a conviction. Rather, under the plain language
of the statute, the EPC may suspend or revoke a license when the
educator has “been convicted or found guilty of, has had
adjudication withheld for, or has pled nolo contendere to a
misdemeanor, felony, or any other criminal charge.”
§ 1012.795(l)(f), Florida Statutes. The statute authorizes
revocation of a certificate based on a conviction, or even a plea to
criminal charges. Because the statute contains no provision for
delaying discipline against an educator’s certificate because of a
pending appeal, the EPC did not err when it revoked Cabezas’
educator certificate based on his federal conviction.
Finally, to the extent that Cabezas sought to challenge the
facts supporting his federal conviction, an administrative
proceeding is not the forum to relitigate a criminal conviction
imposed by a court of competent jurisdiction. See McGraw v. Dep’t
of State, Div. of Licensing, 491 So. 2d 1193, 1195 (Fla. 1st DCA
1986) (“To the extent that appellant sought to relitigate the
question of his guilt regarding the subject offense, such is
improper.”). Cabezas thus could not dispute the basis of his federal
conviction in the proceeding before the EPC.
In sum, because Cabezas was not deprived of due process
when the EPC conducted an informal hearing and the revocation
of his license was authorized under section 1012.795(l)(f), Florida
Statutes, the EPC did not err when it revoked Cabezas’ educator’s
certificate.

Affirmed.
Ray, C.J., and Tanenbaum, J., concur.

3

Not final until disposition of any timely and
authorized motion under Fla. R. App. P. 9.330 or
9.331.

Andres Fernando Cabezas, pro se, Appellant.
Bonnie Wilmot, Deputy General Counsel, Florida Department of
ducation, Tallahassee; and Ron Weaver, Ocala, for Appellee.
V

4

APPENDIX B
Education Practice Commission's Orders

Before the Education Practices
Commission of the State of Florida

mm
FEB -4 2019
^IC^nON PRACTICES
STATE OF RjOBIDA
PAM STEWART as the
Commissioner of Education,
Petitioner,
EPC CASE N2: 18-0386-TC
Index N2: 19-072-FOI
PPS N2: 178-2000
Certificate No.: 1315973

vs.
ANDRES CABEZAS
Respondent.
/

Final Order
This matter appeared before the Education Practices Commission (“Commission”)
at a duly-noticed public meeting on January 23, 2019 in West Palm Beach, Florida, for a
hearing not involving disputed issues of material fact. Petitioner has filed an Administrative
Complaint seeking disciplinary action against the Respondent.

A copy of the

Administrative Complaint is attached to and made a part of this Final Order. Respondent
was not present.
RULING ON MOTION
Upon being served with the Administrative Complaint, Respondent filed an

1

APPENDIX B

Election of Rights requesting a hearing pursuant to Sections 120.569 and 120.57(1),
Florida Statutes, involving disputed issues of material fact, and that this matter be referred
to the Division of Administrative Hearings. After review, it was determined there are no
material facts in dispute, and accordingly, Respondent is entitled to a section 120.57(2),
F.S., hearing not involving disputed issues of material fact. In response, on December 13,
2018, Respondent filed a “Motion to Reinstate and Schedule Formal Hearing” (“Motion”).
After review of the Motion and otherwise being fully apprised in the premises
thereof, the Commission determined there are no disputed issues of material fact, and
therefore, Respondent’s Motion should be, and therefore is, DENIED. After denial of the
Motion, the Commission convened a hearing not involving disputed issues of material fact.
FINDINGS OF FACT
Therefore, the Commission adopts as its finding of facts the facts alleged in the
Administrative Complaint.
CONCLUSIONS OF LAW
Based upon the Findings of Fact, the Commission concludes the Respondent has
violated Section 1012.795(1 )(c), Florida Statutes.
The Commission is empowered by Sections1012.795(1) and 1012.796(7), Florida
Statutes, to impose a penalty against the Respondent.
Therefore, it is ORDERED that:

1.

Respondent’s Florida educator’s certificate is hereby permanently revoked as

of the date of this Final Order.
2.

Respondent is permanently barred from re-application for a

2

Florida

educator’s certificate.
3.

The Commission retains jurisdiction to enter any and such further orders as

necessary to address the material change in circumstances if Respondent’s criminal

conviction is overturned on appeal.
This order shall become effective upon filing with the Clerk of the Commission.
DONE AND ORDERED, this 4th day of February, 2019.

CRISTINA BASSO, Presiding Officer
COPIES FURNISHED TO:
Office of Professional Practices
Services
Bureau of Educator Certification
Superintendent
Lake County School Board
201 W. Burleigh Boulevard
Tavares, Florida 32778
Chief of Staff
Lake County School Board
201 W. Burleigh Boulevard
Tavares, Florida 32778
Lawrence Harris
Senior Assistant Attorney General

NOTICE OF RIGHT TO JUDICIAL REVIEW
A PARTY WHO IS ADVERSELY AFFECTED BY
THIS FINAL ORDER IS ENTITLED TO JUDICIAL
REVIEW PURSUANT TO SECTION 120.68,
FLORIDA STATUTES. REVIEW
PROCEEDINGS ARE GOVERNED BY THE
FLORIDA RULES OF APPELLATE
PROCEDURE. SUCH PROCEEDINGS ARE
COMMENCED BY FILING ONE COPY OF A
NOTICE OF APPEAL WITH THE EDUCATION
PRACTICES COMMISSION AND A SECOND
COPY, ACCOMPANIED BY FILING FEES
PRESCRIBED BY LAW, WITH THE DISTRICT
COURT OF APPEAL, FIRST DISTRICT, OR
WITH THE DISTRICT COURT OF APPEAL IN
THE APPELLATE DISTRICT WHERE THE
PARTY RESIDES. THE NOTICE OF APPEAL
MUST BE FILED WITHIN THIRTY (30) DAYS OF
RENDITION OF THIS ORDER.

3

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a copy of the foregoing Order was mailed to Andres Cabezas,
Register No. 68854-018, FCI Coleman Low, P.O. Box 1031, Coleman, Florida 33521 by
Certified U.S. Mail and by electronic mail to Bonnie Wilmot, Deputy General Counsel, Suite
1232, Turlington Building, 325 West Gaines Street, Tallahassee, Florida 32399 and Ron
Weaver, Esq., Post Office Box 770088, Ocala, Florida 34477 on this 4th day of February,
2019.

-4
Lisa Forbess, Clerk
Education Practices Commission

4

V

\

I

■
APPENDIX C
State Supreme Court Order Denying to Accept Jurisdiction

i

\

Additional material
from this filing is
available in the
Clerk's Office.

